HHS/OIG-Audit--"Need to Establish Connection Between the Calculation of Medicaid Drug Rebates and Reimbursement for Medicaid Drugs, (A-06-97-00052)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Need to Establish Connection Between the Calculation of Medicaid Drug Rebates
and Reimbursement for Medicaid Drugs," (A-06-97-00052)
May 8, 1998
Complete
Text of Report is available in PDF format (1.15 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that requiring drug manufacturers to pay Medicaid
drug rebates based on the average wholesale price (AWP) of drugs, instead of the
average manufacturers price (AMP), would have resulted in about $1.15 billion in
added Medicaid rebates for Calendar Years 1994 through 1996 for only the top 100
drugs (in terms of Medicaid reimbursement). Such a requirement would also; (1)
eliminate inconsistences in the present methods used by drug manufacturers to calculate
AMP, (2) establish a much needed connection between the calculation of Medicaid
drug rebates and the calculation of Medicaid's reimbursement for drugs at the pharmacy
level, and (3) reduce the burden of administering the Medicaid drug rebate program
at the Federal, State, and manufacturer levels. We recommended that the Health
Care Financing Administration develop and submit a legislative proposal to the
Congress that would require drug manufacturers participating in the Medicaid outpatient
prescription drug program to pay Medicaid drug rebates based on AWP. The HCFA did
not concur, stating that they did not believe such legislation would be feasible
at this time. The HCFA did agree, however, that changing from AMP to AWP would
reduce the administrative burden involved in the AMP calculations, and that they
are planning a comprehensive study of AWP.